( t­
 .."',;ol
       ~lrV"la
""+'~4S"VIC£tS.Ú'.
                       DEPARTMENT
                       DEPARTMENTOF
                                  OFHEALTH
                                    HEALTH&.
                                           &. HUMAN
                                              HUMAN SERVICES
                                                    SERVICES                                                     Office
                                                                                                                 Office of
                                                                                                                        of Inspector
                                                                                                                           InspectorGeneral


                                                                                                                 Washington, D.C.
                                                                                                                 Washington,
                                                                                                                                     General


                                                                                                                                   20201
                                                                                                                             D.C. 20201




                                                                   DEC -- 44 2002

                                                                   DEC        2002

                     TO:
                     TO:               Kerry Weems
                                       Kerry  Weems
                                       Acting Administrator
                                             rs for
                                       Cent rs   for Medicare
                                                     Medicare & Medicaid Services
                                                              & Medicaid Services


                     FROM:               osepkv~
                                           h~E
                                         osep .ven~~/

                                       Deputy Inspector
                                              Inspector General
                                                        General for
                                                                for Audit Services
                                                                          Services


                     SUBJECT:          Review of High-Dollar Payments for
                                       Review of 
                      for Outpatient Services Processed by Palmetto
                                                                  1, 2004, Through December
                                       GBA for the Period January 1,                December 31,31, 2005
                                                                                                    2005
                                       (A-04-08-0601O)
                                       (A-04-08-0601O)


                     Attached is an advance copy of              of our final report on high-dollar payments for
                                                                                                               for outpatient
                                                                                                                   outpatient services
                                                                                                                                 services
                     processed by Palmetto GBA (Palmetto)                    for the period January  1, 2004, through   December
                                                                 (Palmetto) for the period Januar 1, 2004, through December 31,      31,
                     2005.
                     2005. These These     claims
                                 claims were submitted were
                                                       by 
  submitted by providers in North Carolina.
                                                                                                 Carolina. We
                                                                                                           We will
                                                                                                                will issue
                                                                                                                      issue this
                                                                                                                            this report to
                     Palmetto       within      5  business    days.  This  audit was part of a nationwide  review
                     Palmetto within 5 business days. This audit was par of a nationwide review of excessive
       of  excessive
                     payments for outpatient services
                     payments                               services of$50,000
                                                                     of$50,000 or or more (high-dollar
                                                                                          (high-dollar payments).
                                                                                                        payments).

                     Our objective was to determine whether high-dollar Medicare payments that Palmetto made to
                     hospitals for outpatient services were appropriate.

                     Of
                     Of  the 39 high-dollar payments that Palmetto made for outpatient services for calendar years
                     (CY)
                     (CY) 2004
                            2004 and
                                 and 2005,
                                     2005, 17
                                            17 were
                                                were appropriate.   The remaining
                                                      appropriate. The   remaining 22
                                                                                    22 payments
                                                                                       payments included
                                                                                                  included overpayments
                                                                                                            overpayments
                     totaling $1,772,911,
                              $1,772,911, which
                                           which the
                                                   the hospitals
                                                       hospitals had
                                                                 hadnot
                                                                      notrefunded
                                                                          refundedbybythe
                                                                                       thebeginning
                                                                                           beginnng ofof our
                                                                                                         our audit.
                                                                                                             audit. The
                     hospitals received these  overpayments    by billing excessive units of service. Palmetto
                               received these overpayments by biling excessive unts of service. Palmetto made   made the
                     overpayments because it did not have prepayment or postpayment controls to identify aberrant
                     payments at the claim leveL.
                                             level. In addition, neither the Fiscal Intermediary Standard System nor the
                     Common Working File had sufficient edits in place during       CYss 2004 and 2005 to detect and
                                                                             durng CY
                     prevent excessive payments.

                     We recommend that Palmetto recover the $1,772,911 in identified overpayments.

                     In written comments on
                        wrtten comments    on our
                                              our draft
                                                  draft report,
                                                        report, Palmetto
                                                                Palmetto provided
                                                                         provided information
                                                                                  information on actions that it was
                     taking to recoup the overpayments.

                     If you have any questions or comments about this report, please do
                                                                                     do not hesitate to call me,
                                                                                                             me, or
                     your staff may contact George M.
                                                    M. Reeb,
                                                        Reeb, Assistant Inspector General for the Centers for
                                                                                                           for
                     Medicare & & Medicaid Audits, at (410)
                                                      (410) 786-7104  or through  e-mail at George.Reeb@oig.hhs.gov
                                                                                         at George.Reeb(ßoig.hhs.gov
Page 2 – Kerry Weems


or Peter J. Barbera, Regional Inspector General for Audit Services, Region IV, at (404) 562-7750
or through e-mail at Peter.Barbera@oig.hhs.gov. Please refer to report number A-04-08-06010.


Attachment
                  DEPARTMENT OF HEALTH AND HUMAN SERVICES                           Office of Inspector General
                                                                                     Offic:e of Audit Servic:es

                                                                                          REGION IV
                                                                              61 Forsyth Street, S.W., Suite 3T41
                                                                                   Atlanta, Georgia 30303
                                    DEC - 9 2008

 Report Number: A-04-08-06010

 Mr. Bruce W. Hughes
 President and Chief Operating Officer
 Palmetto GBA
 2300 Springdale Driye, Building 1
 Camden, South Carolina 29020

 Dear Mr. Hughes:

 Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
 General (DIG), final report entitled "Review of High-Dollar Payments fOf Outpatient Services
 Processed by Palmetto GBA for the Period January 1, 2004, Through December 31,2005." We
 will forward a copy of this report to the HHS action official noted on the following page 'for
 review and any action deemed necessary.

 The HHS action official will make final determination as to actions taken on all matters reported.
 We request that you respond to this official within 30 days from the date of this letter. Your
 response should present any comments or additional information that you believe may have a .
 bearing on the final determination.

. Pursuant to the principles ofthe Freedom of Information Act, 5 U.S.c. § 552, as amended by
  Public Law 104-231, OIG reports generally are made available to the public to the extent the
  information is not subject to exemptions in the Act (45 CFR part 5). Accordingly, this report
  will be posted on the Internet at http://oig.hhs.gov.

 If you have any questions or comments about this report, please do not hesitate to call me, or
 contact Mary Ann Moreno, Audit Manager, at (404) 562-7770 or through e-mail at
 Mary.Moreno@oig.hhs.gov. Please refer to report number A-04-08-06010 in all
 correspondence.

                                              Sincerely,



                                              Peter J. Barbera
                                              Regional Inspector General
                                               for Audit Services


 Enclosure
Page 2 – Mr. Bruce W. Hughes


Direct Reply to HHS Action Official:

Ms. Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, Missouri 64106
Department of Health and Human Services
 

             OFFICE OF 

        INSPECTOR GENERAL 





   REVIEW OF HIGH-DOLLAR 

  PAYMENTS FOR OUTPATIENT
   SERVICES PROCESSED BY
   PALMETTO GBA FOR THE
   PERIOD JANUARY 1, 2004,
 THROUGH DECEMBER 31, 2005 





                     Daniel R. Levinson
 

                      Inspector General 


                       December 2008
 

                       A-04-08-06010
 

                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                            Notices


                            Notices



       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the principles of the Freedom of Information
                                              Information Act, 5 U.S.C.
§ 552, as amended by Public Law 104-231, Office of Inspector General
reports generally are made available to the public to the extent the
                                                             part 5).
information is not subject to exemptions in the Act (45 CFR part

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices
                                              practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY 


BACKGROUND

Pursuant to Title XVIII of the Social Security Act, the Medicare program provides health
insurance for people age 65 and over and those who are disabled or have permanent kidney
disease. The Centers for Medicare & Medicaid Services (CMS), which administers the program,
contracts with fiscal intermediaries to process and pay Medicare Part B claims submitted by
hospital outpatient departments. The intermediaries use the Fiscal Intermediary Standard System
and CMS’s Common Working File (CWF) to process claims. The CWF can detect certain
improper payments during prepayment validation.

Medicare guidance requires hospitals to claim outpatient services using the appropriate
Healthcare Common Procedure Coding System codes and to report units of services as the
number of times that a service or procedure was performed.

During our audit period (calendar years (CY) 2004 and 2005), Palmetto GBA (Palmetto) was the
fiscal intermediary in North Carolina. Palmetto processed approximately 6 million outpatient
claims during this period, 39 of which resulted in payments of $50,000 or more (high-dollar
payments).

OBJECTIVE

Our objective was to determine whether high-dollar Medicare payments that Palmetto made to
hospitals for outpatient services were appropriate.

SUMMARY OF FINDING

Of the 39 high-dollar payments that Palmetto made for outpatient services for CYs 2004 and
2005, 17 were appropriate. The remaining 22 payments included overpayments totaling
$1,772,911, which the hospitals had not refunded by the beginning of our audit. The hospitals
received these overpayments by billing excessive units of service. Palmetto made the
overpayments because it did not have prepayment or postpayment controls to identify aberrant
payments at the claim level. In addition, neither the Fiscal Intermediary Standard System nor the
CWF had sufficient edits in place during CYs 2004 and 2005 to detect and prevent excessive
payments.

RECOMMENDATION

We recommend that Palmetto recover the $1,772,911 in identified overpayments.

PALMETTO GBA COMMENTS

In written comments on our draft report, Palmetto provided information on actions that it was
taking to recoup the overpayments. The complete text of Palmetto’s comments is included as the
Appendix.



                                                i
                                                   TABLE OF CONTENTS 


                                                                                                                                 Page

INTRODUCTION................................................................................................................1 


     BACKGROUND .............................................................................................................1 

       Medicare Fiscal Intermediaries..................................................................................1 

       Claims for Outpatient Services ..................................................................................1 

       Palmetto GBA............................................................................................................1            


     OBJECTIVE, SCOPE, AND METHODOLOGY ...........................................................1 

       Objective ...................................................................................................................1 

       Scope..........................................................................................................................2 

       Methodology ..............................................................................................................2 


FINDING AND RECOMMENDATION...........................................................................2 


     FEDERAL REQUIREMENTS........................................................................................3 


     INAPPROPRIATE HIGH-DOLLAR PAYMENTS .......................................................3 


     CAUSES OF OVERPAYMENTS...................................................................................3 


     FISCAL INTERMEDIARY PREPAYMENT EDIT…………………………………...4 


     RECOMMENDATION ...................................................................................................4 


     PALMETTO GBA COMMENTS ...................................................................................4 


APPENDIX

     PALMETTO GBA COMMENTS




                                                                      ii
                                      INTRODUCTION 


BACKGROUND

Pursuant to Title XVIII of the Social Security Act, the Medicare program provides health
insurance for people age 65 and over and those who are disabled or have permanent kidney
disease. The Centers for Medicare & Medicaid Services (CMS) administers the program.

Medicare Fiscal Intermediaries

CMS contracts with fiscal intermediaries to, among other things, process and pay Medicare
Part B claims submitted by hospital outpatient departments. The intermediaries’ responsibilities
include determining reimbursement amounts, conducting reviews and audits, and safeguarding
against fraud and abuse. Federal guidance provides that intermediaries must maintain adequate
internal controls over automatic data processing systems to prevent increased program costs and
erroneous or delayed payments. To process hospitals’ outpatient claims, the intermediaries use
the Fiscal Intermediary Standard System and CMS’s Common Working File (CWF). The CWF
can detect certain improper payments during prepayment validations.

In calendar years (CY) 2004 and 2005, fiscal intermediaries processed and paid approximately
278 million outpatient claims, 989 of which resulted in payments of $50,000 or more (high-
dollar payments).

Claims for Outpatient Services

Medicare guidance requires hospitals to submit accurate claims for outpatient services.
Hospitals should use the appropriate Healthcare Common Procedure Coding System (HCPCS)
codes and report units of service as the number of times that a service or procedure was
performed.

Palmetto GBA

During our audit period (CYs 2004 and 2005), Palmetto GBA (Palmetto) was the fiscal
intermediary in North Carolina. Palmetto processed approximately 6 million outpatient claims
during this period, 39 of which resulted in high-dollar payments totaling $3.2 million.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether high-dollar Medicare payments that Palmetto made to
hospitals for outpatient services were appropriate.




                                               1

Scope

We reviewed the 39 high-dollar payments for outpatient claims that Palmetto processed during
CYs 2004 and 2005. We limited our review of Palmetto’s internal controls to those applicable to
the 39 high-dollar payments because our objective did not require an understanding of all
internal controls over the submission and processing of claims. Our review allowed us to
establish reasonable assurance of the authenticity and accuracy of the data obtained from the
National Claims History file, but we did not assess the completeness of the file.

We performed fieldwork from July 2007 through May 2008. Our fieldwork included contacting
Palmetto, located in Columbia, South Carolina, and the hospitals that received the high-dollar
payments.

Methodology

To accomplish our objective, we:

   •	 reviewed applicable Federal laws, regulations, and guidance;

   •	 used CMS’s National Claims History file to identify outpatient claims with high-dollar
      payments;

   •	 reviewed available CWF claim histories for claims with high-dollar payments to
      determine whether the claims had been canceled and superseded by revised claims and
      whether payments remained outstanding at the time of our fieldwork;

   •	 contacted the hospitals that received the high-dollar payments to determine whether the
      information on the claims was correct and, if not, why the claims were incorrect; and

   •	 validated with Palmetto that partial overpayments occurred and refunds were appropriate.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objective.

                           FINDING AND RECOMMENDATION

Of the 39 high-dollar payments that Palmetto made for outpatient services for CYs 2004 and
2005, 17 were appropriate. The remaining 22 payments included overpayments totaling
$1,772,911, which the hospitals had not refunded by the beginning of our audit. The hospitals
received these overpayments by billing excessive units of service. Palmetto made the
overpayments because it did not have prepayment or postpayment controls to identify aberrant
payments at the claim level. In addition, neither the Fiscal Intermediary Standard System nor the



                                               2

CWF had sufficient edits in place during CYs 2004 and 2005 to detect and prevent excessive
payments.

FEDERAL REQUIREMENTS

Section 9343(g) of the Omnibus Budget Reconciliation Act of 1986, P.L. No. 99-509, requires
hospitals to report claims for outpatient services using HCPCS codes. CMS’s “Medicare Claims
Processing Manual,” Publication No. 100-04, Chapter 4, section 20.4, states: “The definition of
service units . . . is the number of times the service or procedure being reported was performed.”
In addition, Chapter 1, section 80.3.2.2, of this manual states: “In order to be processed correctly
and promptly, a bill must be completed accurately.”

Section 3700 of the “Medicare Intermediary Manual” states: “It is essential that you [the fiscal
intermediary] maintain adequate internal controls over Title XVIII [Medicare] automatic data
processing systems to preclude increased program costs and erroneous and/or delayed
payments.”

INAPPROPRIATE HIGH-DOLLAR PAYMENTS

Hospitals reported excessive units of service on 22 claims, resulting in overpayments totaling
$1,772,911. The following examples illustrate the overstated units of service:

    •	 A hospital billed 11,475 excess units of a drug because of a clerical error and an outdated
       pharmacy formulary that caused a conversion error. As a result, Palmetto paid the
       hospital $234,723 when it should have paid $1,973, an overpayment of $232,750.

    •	 A hospital billed 63,832 excess units of a drug because of a pharmacy computer system
       conversion error. For this drug, the system assigned an incorrect charge. As a result,
       Palmetto paid the hospital $756,930 when it should have paid $12,253, an overpayment
       of $744,677.

The hospitals attributed the incorrect claims to clerical, pharmacy system, or billing system
errors. The hospitals agreed that excessive units were billed and that overpayments occurred.

CAUSES OF OVERPAYMENTS

During CYs 2004 and 2005, Palmetto did not have prepayment or postpayment controls to
identify aberrant payments at the claim level, and the CWF lacked prepayment edits to detect and
prevent excessive payments. In effect, CMS relied on hospitals to notify the fiscal intermediaries
of excessive payments and on beneficiaries to review their “Explanation of Medicare Benefits”
and disclose any overpayments. 1



1
 The fiscal intermediary sends an “Explanation of Medicare Benefits” notice to the beneficiary after the hospital
files a claim for Part B service(s). The notice explains the service(s) billed, the approved amount, the Medicare
payment, and the amount due from the beneficiary.


                                                          3

FISCAL INTERMEDIARY PREPAYMENT EDIT

On January 3, 2006, after our audit period, CMS required intermediaries to implement a Fiscal
Intermediary Standard System edit to suspend potentially excessive Medicare payments for
prepayment review. The edit suspends high-dollar outpatient claims and requires intermediaries
to determine the legitimacy of the claims.

RECOMMENDATION

We recommend that Palmetto recover the $1,772,911 in identified overpayments.

PALMETTO GBA COMMENTS

In its October 22, 2008, written comments on our draft report, Palmetto provided information on
actions that it was taking to recoup the overpayments. The complete text of Palmetto’s
comments is included as the Appendix.




                                               4

APPENDIX 

APPENDIX 

